Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MEDICARE REIMBURSEMENT 

FOR END STAGE RENAL DISEASE 

 DRUGS: THIRD QUARTER 2006 





                    Daniel R. Levinson

                     Inspector General 


                       June 2007 

                     OEI-03-06-00590

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                      S U M M A R Y                                          



                  OBJECTIVE
                  To compare the Medicare reimbursement amounts for selected separately
                  billable end stage renal disease (ESRD) drugs to the average acquisition
                  costs of these drugs for ESRD dialysis facilities in the third quarter of
                  2006.


                  BACKGROUND
                  ESRD facilities (i.e., dialysis facilities) are approved to furnish at least
                  one specific ESRD service and are either independent or hospital based.
                  The Centers for Medicare & Medicaid Services (CMS) reimburses both
                  facility types for most items related to dialysis services based on a
                  prospective payment system known as the composite rate. However,
                  some drugs incident to dialysis treatment are not covered under this rate
                  and are instead billed separately. A recent report by the Government
                  Accountability Office (GAO) recommended that Congress consider
                  establishing a new bundled payment system creating one fixed rate for all
                  ESRD-related drugs and services.

                  Prior to January 1, 2006, Medicare reimbursed independent and
                  hospital-based dialysis facilities for separately billable ESRD drugs using
                  different methods. In 2005, independent dialysis facilities generally were
                  reimbursed for separately billable drugs at either their acquisition cost or
                  106 percent of their published average sales price (ASP). Hospital-based
                  dialysis facilities generally were reimbursed for drugs on a reasonable
                  cost basis. Effective January 1, 2006, CMS enacted several significant
                  changes to the drug reimbursement methods used for dialysis facilities.
                  One revision included paying all dialysis facilities 106 percent of the ASP
                  for all separately billable ESRD drugs and biologicals, with certain
                  exceptions, making payment methods for independent and hospital-based
                  dialysis facilities the same.

                  We sent surveys to a random sample of independent and hospital-based
                  dialysis facilities to collect third-quarter 2006 data on the total amount
                  paid, discounts and rebates received, and total units purchased for
                  11 high-expenditure, separately billable ESRD drugs. We determined the
                  volume-weighted average acquisition cost per drug and compared it to the
                  drugs’ third-quarter 2006 Medicare reimbursement amount. For each
                  drug, we calculated the percentage of facilities that had average
                  acquisition costs below the third-quarter 2006 ASP-based reimbursement
                  amount.

OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   i
E X E C U T I V E              S U     M M A R Y 




                   FINDINGS
                   Among responding independent dialysis facilities, the average
                   acquisition cost was less than the Medicare reimbursement amount
                   for 9 of the 11 ESRD drugs under review. In the third quarter of 2006,
                   the average acquisition cost among the responding independent dialysis
                   facilities for 9 of the 11 ESRD drugs under review was between
                   7 and 32 percent below the Medicare reimbursement amount. For the
                   remaining two drugs, average acquisition costs ranged from 3 to 9 percent
                   above the Medicare reimbursement amount. Reimbursement for these
                   two drugs combined accounted for less than 1 percent of total Medicare
                   reimbursement for separately billable drugs in independent dialysis
                   facilities in 2005. When weighted by 2005 total Medicare reimbursement
                   for each of the 11 drugs, overall drug acquisition costs for responding
                   independent dialysis facilities were, on average, 10 percent below the
                   Medicare reimbursement amount in the third quarter of 2006.

                   Overall, responding independent chain dialysis facilities paid less for the
                   drugs under review than nonchain facilities. On average, independent
                   chain facilities could purchase 8 of the 11 drugs under review for less
                   than independent nonchain facilities in the third quarter of 2006. During
                   that same period, the responding chain facilities were able to purchase
                   9 of the 11 drugs for less than the Medicare reimbursement amount,
                   compared to 7 of the 11 drugs among nonchain facilities. On average, the
                   four drugs that nonchain facilities could not purchase for less than the
                   Medicare reimbursement amount accounted for less than 10 percent of
                   total Medicare payments for separately billable drugs in 2005.
                   Among responding hospitals, the average acquisition cost was less
                   than the Medicare reimbursement amount for 6 of the 11 ESRD drugs
                   under review. In the third quarter of 2006, the average acquisition cost
                   among the responding hospital-based dialysis facilities for 6 of the
                   11 ESRD drugs under review was between 4 and 29 percent below the
                   Medicare reimbursement amount. For the remaining five drugs, average
                   acquisition costs ranged from 1 to 8 percent above Medicare
                   reimbursement. Reimbursement for these five drugs accounted for
                   29 percent of reimbursement to hospital-based dialysis facilities for
                   separately billable drugs in 2005. This indicates that, when compared to
                   independent facilities, hospital-based facilities could potentially face
                   larger gaps between acquisition costs and Medicare reimbursement when
                   purchasing a number of highly utilized drugs.



 OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   ii
E X E C U T I V E              S U     M M A R Y


                   When weighted by 2005 total Medicare reimbursement for each of the
                   11 drugs, overall drug acquisition costs for hospital-based dialysis
                   facilities were, on average, 7 percent below the Medicare reimbursement
                   amount in the third quarter of 2006.


                   CONCLUSION
                   As the findings in this report show, on average, responding independent
                   dialysis facilities could acquire the majority of the selected separately
                   billable ESRD drugs for less than the Medicare reimbursement amount.
                   Drug acquisition costs among different types of independent dialysis
                   facilities did vary, with overall drug costs to chain facilities being
                   somewhat less than costs to nonchains. However, among both chain and
                   nonchain independent dialysis facilities, reimbursement for the drugs
                   with average acquisition costs above the Medicare reimbursement
                   amount accounted for a small percentage of overall drug expenditures. In
                   contrast, average acquisition costs among hospital-based dialysis facilities
                   for 5 of 11 drugs under review exceeded the Medicare reimbursement
                   amount. Expenditures for these drugs represented almost one-third of
                   overall expenditures in hospital-based dialysis facilities for separately
                   billable drugs.

                   In conclusion, acquisition costs for the same drug may vary based on the
                   type and chain affiliation of the facility, causing some facilities (especially
                   hospital-based facilities) to potentially experience greater gaps in
                   reimbursement for certain drugs than others. CMS should continue to
                   monitor the situation closely to ensure that all facilities are reimbursed
                   appropriately. In addition, we suggest that CMS consider the cost data
                   presented in this report in its discussions about the merits of separately
                   billable drugs under the composite rate, as recommended by the
                   Government Accountability Office.


                   AGENCY COMMENTS
                   CMS reiterated that it would continue to monitor ESRD payments in
                   relation to the drug acquisition costs of dialysis providers. CMS also
                   stated that this report provides useful information that will be helpful in
                   these monitoring efforts, and that the agency looks forward to continuing
                   to work with OIG on ESRD issues in the future.




 OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   iii
Δ   T A B L E                    O F            C O N T E N T S                             




    EXECUTIVE SUMMARY .................................... i




    INTRODUCTION............................................ 1




    FINDINGS.................................................. 9



              Independent facilities acquired 9 of 11 drugs for less 

              than reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 

              Hospital-based facilities acquired 6 of 11 drugs for less 

              than reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 



    C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

              Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



    A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

              A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 





    A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

Δ      I N T R O D U C T I O N                                      




                      OBJECTIVE
                      To compare the Medicare reimbursement amounts for selected separately
                      billable end stage renal disease (ESRD) drugs to the average acquisition
                      costs of these drugs for ESRD dialysis facilities in the third quarter of
                      2006.


                      BACKGROUND
                      In 2005, Medicare reimbursed separately billable ESRD drugs and
                      biologicals1 administered in independent dialysis facilities based either on
                      106 percent of their published average sales price (ASP) or, for certain
                      specified drugs, their acquisition cost.2 At that time, Medicare generally
                      reimbursed hospital-based dialysis facilities for separately billable drugs
                      on a reasonable cost basis.3 Effective January 1, 2006, the Centers for
                      Medicare & Medicaid Services (CMS) enacted several significant changes
                      to the drug reimbursement methods used for ESRD facilities. One
                      revision included paying all dialysis facilities (independent and
                      hospital-based) 106 percent of ASP for all separately billable ESRD drugs,
                      making payment methods for independent and hospital-based dialysis
                      facilities the same.4 However, the ASP methodology is not used for
                      vaccines, blood, and blood products.5
                      This review is the third in a series of Office of Inspector General (OIG)
                      reports on Medicare reimbursement for separately billable ESRD drugs.
                      Staff from CMS, the Medicare Payment Advisory Commission, and a
                      number of dialysis facilities previously expressed their interest in OIG’s
                      conducting future reviews on the topic. This current study compares
                      third-quarter 2006 average acquisition costs to Medicare reimbursement
                      amounts for selected separately billable ESRD drugs in both independent
                      and hospital-based dialysis facilities.
                      ESRD Treatment in Dialysis Facilities
                      ESRD facilities (i.e., dialysis facilities) are approved to furnish at least
                      one specific ESRD service and are either independent or hospital based.6


                      1 Hereinafter, references to separately billable drugs refer to both drugs and biologicals. 

                      2 42 CFR § 414.904 (d)(2). 

                      3 CMS, “Medicare Claims Processing Manual,” Chapter 8, § 60.2.2. 

                      4 Ibid. 

                      5 42 CFR § 414.906 (e). 

                      6 42 CFR § 405.2102. 





    OEI-03-06-00590   MEDICARE REIMBURSEMENT      FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   1
I N T R O D        U C T       I O N


                    Both types of dialysis facilities provide outpatient services directly to
                    ESRD patients as well as home dialysis (i.e., dialysis performed by an
                    appropriately trained patient in his/her home).7 Independent dialysis
                    facilities are freestanding, whereas hospital-based dialysis facilities must
                    be either attached to or located in a hospital.8 As of October 2006,
                    4,050 independent dialysis facilities and 310 hospital-based dialysis
                    facilities were listed on Medicare’s Dialysis Facility Compare database.9
                    Medicare Payments to Dialysis Facilities
                    CMS reimburses dialysis facilities based on a prospective payment system
                    known as the composite rate. Facilities receive a fixed composite rate
                    payment for each dialysis treatment they provide. Independent dialysis
                    facilities receive a lower rate than hospital-based facilities.10 The
                    composite rate includes most items related to dialysis services, such as
                    labor costs, related supplies, routine tests, and certain drugs.11 However,
                    the composite rate does not include some drugs, such as epoetin alfa and
                    darbepoetin alfa, which are incident to dialysis treatment. Drugs not
                    covered under the composite rate must be billed separately and thus are
                    referred to as separately billable drugs.12
                    A recent report by the Government Accountability Office (GAO)
                    recommended that Congress consider establishing a new bundled
                    payment system creating one fixed rate, adjusted for differences across
                    facilities, for the services paid for under the composite rate and the drugs
                    that facilities currently bill separately. Such a change would result in one
                    payment rate for all ESRD services and drugs. CMS generally agreed but
                    noted that more research and development were necessary to fully
                    support its implementation.13




                    7 42 CFR § 405.2102. 

                    8 “2005 United States Renal Disease Researcher’s Guide,” p. 345.

                    9 Dialysis Facility Compare database. Available online at: 

                    http://medicare.gov/Dialysis/Home.asp. Accessed in October 2006. This database provides 

                    information on all dialysis facilities regarding their services, quality measures, and resources. 

                    10 CMS, “Medicare Claims Processing Manual,” Chapter 8, § 10.1.

                    11 Ibid., Chapter 11, § 30. 

                    12 Ibid., Chapter 11, § 30.4.2. 

                    13 GAO-07-77, “Bundling Medicare’s Payment for Drugs With Payment for All ESRD Services 


                    Would Promote Efficiency and Clinical Flexibility.” Available online at: 

                    http://www.gao.gov/cgo-bin/getrpt?GAO-07-77. Accessed on January 24, 2007. 




 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   2
I N T R O D        U C T      I O N


                    Medicare Payments for Separately Billable ESRD Drugs
                    In general, Medicare coverage of separately billable drugs in dialysis
                    facilities is limited to products that cannot be self-administered, i.e.,
                    drugs that are administered by a health care professional. The exceptions
                    to this requirement are epoetin alfa and darbepoetin alfa, which, if
                    furnished by the dialysis facility, will be covered even if the patient
                    self-administers the drug.14 Both drugs stimulate the production of red
                    blood cells in patients with anemia; darbepoetin alfa contains two
                    additional carbohydrate chains that lengthen its biological half-life.15
                    According to CMS’s National Claims History File, Medicare reimbursed
                    $2 billion for separately billable drugs furnished by independent dialysis
                    facilities and $200 million for separately billable drugs furnished by
                    hospital-based dialysis facilities in 2005.

                    Independent Dialysis Facilities. The Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003, Public Law 108-173,
                    (MMA), required that CMS base calendar year (CY) 2005 reimbursement
                    to independent dialysis facilities for separately billable drugs on
                    acquisition costs as determined by OIG.16 In response to this
                    requirement, OIG calculated CY 2003 average acquisition costs (AAC) for
                    10 high-expenditure drugs (including epoetin alfa)17 used in independent
                    dialysis facilities as part of a May 2004 report, “Medicare Reimbursement
                    for Existing End Stage Renal Disease Drugs” (OEI-03-04-00120). CMS
                    then determined CY 2005 reimbursement amounts using two methods:

                         •	   For the 10 high-expenditure, separately billable drugs included in
                              OIG’s report, CMS based reimbursement on AACs as calculated by
                              OIG.

                         •	   For all other drugs billed by independent dialysis facilities (with
                              the exception of certain vaccines, blood, and blood products), CMS
                              reimbursed independent dialysis facilities at 106 percent of the
                              drugs’ ASP.18




                    14 CMS, “Medicare Benefit Policy Manual,” Chapter 11, § 90. 

                    15 68 Fed. Reg. 63398, 63456 (November 7, 2003). 

                    16 MMA § 623 (d)(1). 

                    17 At the time of that review, these 10 drugs accounted for 98.4 percent of Medicare

                    reimbursement to independent dialysis facilities for separately billable drugs. 

                    18 42 CFR § 414.904 (d)(2). 





 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR    E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   3
I N T R O D       U C T         I O N


                  Beginning January 1, 2006, CMS no longer reimbursed high-expenditure
                  drugs (including epoetin alfa) based on AACs calculated by OIG but
                  instead began to reimburse all separately billable drugs furnished by
                  independent dialysis facilities (with the exception of certain vaccines,
                  blood, and blood products) at 106 percent of the ASP.19 This is the same
                  method used to reimburse other drugs under Medicare Part B. CMS
                  implemented this change because the agency believed that it was
                  inappropriate to use older AAC data provided by OIG (updated for
                  inflation) as a basis for reimbursement. In addition, CMS also questioned
                  the feasibility of continually obtaining acquisition cost data over the long
                  term.20
                  Hospital-Based Dialysis Facilities. Prior to January 1, 2006, CMS
                  reimbursed hospital-based dialysis facilities for separately billable drugs
                  based on reasonable cost. The exception to this rule was epoetin alfa,
                  which CMS paid for based on a statutory reimbursement allowance of
                  $10 per 1,000 units prior to January 1, 2005, and based on AAC in
                  2005.21, 22 Beginning January 1, 2006, all separately billable drugs (with
                  the exception of certain vaccines, blood, and blood products) furnished by
                  hospital-based dialysis facilities became subject to a new payment
                  methodology and now are reimbursed using the same rate as that of
                  independent dialysis facilities, i.e., 106 percent of the ASP.23 This change
                  produced a consistent drug payment methodology among independent
                  dialysis facilities and hospital-based dialysis facilities.
                  Related Work by the Office of Inspector General
                  OIG has completed two reviews analyzing the differences between
                  acquisition costs for separately billable ESRD drugs and Medicare
                  reimbursement amounts in independent dialysis facilities. Both of these
                  reviews were conducted pursuant to mandates in the MMA.24
                  In our May 2004 report, “Medicare Reimbursement for Existing End
                  Stage Renal Disease Drugs” (OEI-03-04-00120), we found that the four
                  largest corporate dialysis providers and a random sample of unaffiliated
                  independent dialysis facilities were able to acquire 10 high-expenditure


                  19 CMS, “Medicare Claims Processing Manual,” Chapter 8, § 60.2.2. 

                  20 70 Fed. Reg. 45764, 45845 (August 8, 2005). 

                  21 The Social Security Act, Section 1881, (11)(B)(ii)(I). 

                  22 70 Fed. Reg. 45764, 45845 (August 8, 2005). 

                  23 CMS, “Medicare Claims Processing Manual,” Chapter 8, § 60.2.2. 

                  24 MMA § 623 (c). 





OEI-03-06-00590   MEDICARE REIMBURSEMENT    FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   4
I N T R O D        U C T     I O N


                    drugs at costs averaging 14 to 22 percent below the Medicare
                    reimbursement amount. We also estimated that there would be an
                    11 percent increase in Medicare expenditures for separately billable
                    ESRD drugs between 2003 and 2005. CMS used the data presented in
                    this report to set CY 2005 reimbursement rates for the 10 drugs under
                    review.

                    A second report, completed in March 2006, “Medicare Reimbursement for
                    New End Stage Renal Disease Drugs” (OEI-03-06-00200), sought to
                    examine new separately billable ESRD drugs (i.e., drugs not available
                    prior to January 1, 2004). Darbepoetin alfa was selected as the only drug
                    for review because it accounted for 99.9 percent of Medicare
                    reimbursement for new ESRD drugs. We found that responding
                    independent dialysis facilities were able to acquire darbepoetin alfa for
                    less (sometimes substantially less) than the 2005 Medicare
                    reimbursement amount.


                    METHODOLOGY
                    Scope
                    We obtained the average acquisition cost of 11 high-expenditure,
                    separately billable drugs from a random sample of independent and
                    hospital-based dialysis facilities for the third quarter of 2006. The
                    11 drugs selected for review account for approximately 99 percent of
                    Medicare reimbursement for separately billable drugs in independent
                    dialysis facilities and 98 percent in hospital-based dialysis facilities. We
                    did not include vaccines, blood, or blood products in our analysis because
                    they are not reimbursed under the ASP methodology.
                    Selection of Drugs Under Review
                    At the time of sample selection, complete 2005 National Claims History
                    File data were not available. Instead, we used a 1-percent sample of this
                    file to rank separately billable ESRD drugs by their total Medicare
                    reimbursement in both independent dialysis facilities and hospital-based
                    dialysis facilities. The top drugs from the 1-percent sample were nearly
                    identical in both facility types, with 9 of the 10 highest expenditure drugs
                    being the same. The differing drugs were the hepatitis B vaccine (ranked
                    9th in independent dialysis facilities and 15th in hospital-based dialysis
                    facilities) and albumin (ranked 17th in independent dialysis facilities and
                    10th in hospital-based dialysis facilities). In selecting drugs for our
                    sample, we removed the hepatitis B vaccine and the blood product
                    albumin because they are both exempted from the ASP methodology.

 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   5
I N T R O D        U C T      I O N


                    After removing these two products, our sample of drugs in both facility
                    types was identical. Based on a follow-up analysis, the nine
                    high-expenditure drugs selected for review remain as high-expenditure
                    drugs in the complete 2005 and the preliminary 2006 National Claims
                    History File.

                    We also included two additional drugs in our review (vancomycin and iron
                    dextran) at the request of CMS staff. Among the 11 selected drugs,
                    1 drug, epoetin alfa, accounted for 74 percent of drug reimbursement
                    among independent dialysis facilities. Two drugs, epoetin alfa and
                    darbepoetin alfa, combined to account for 61 percent of drug
                    reimbursement among hospital-based dialysis facilities.
                    Data Collection
                    Independent Dialysis Facilities. In previous ESRD reviews, we determined
                    that four corporations owned the majority of independent dialysis
                    facilities and accounted for 73 percent of Medicare reimbursement for
                    separately billable ESRD drugs. Since our last review, consolidations
                    among these four corporations have created two large, independent
                    dialysis companies. These two companies own 2,868, or 71 percent, of all
                    independent dialysis facilities. In November 2006, we sent a survey
                    requesting third-quarter 2006 cost information for each of the 11 drugs
                    under review to representatives of the two large companies. We
                    requested information about the total amount paid by each company for
                    each of the 11 drugs, the amount of discounts and rebates received, the
                    net amount paid, the number of units purchased, and the average
                    acquisition cost per drug. We defined average acquisition cost as the total
                    amount paid (net of all rebates and discounts) divided by the total number
                    of units purchased. We also asked the companies to report any additional
                    costs associated with the drugs’ acquisition. Both companies responded
                    with the requested information.

                    In November 2006, we also sent surveys requesting identical
                    third-quarter 2006 cost information to a random sample of 200
                    independent dialysis facilities not affiliated with the two largest
                    companies.25 Between December 2006 and February 2007, we received
                    data from 158 facilities (79 percent).26 Six of the responding facilities
                    owned multiple dialysis units and provided cost data for 358 additional


                    25 We randomly selected these facilities from Medicare’s Dialysis Facility Compare database.
                    26 We received responses from 161 facilities, but 3 were unable to provide the requested data.
                    One provided peritoneal services, one was closed, and one was acquired by a large corporation.



 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   6
I N T R O D        U C T      I O N


                    facilities (for a total of 516 respondents not affiliated with the two large
                    independent dialysis companies).

                    After we combined cost data from the 2,868 facilities owned or managed
                    by the two large companies and the 516 responding unaffiliated
                    independent facilities, our results represent acquisition cost information
                    for 84 percent of all independent dialysis facilities.

                    Hospital-Based Dialysis Facilities. We selected a random sample of
                    200 hospital-based dialysis facilities from the 310 identified in Medicare’s
                    Dialysis Facility Compare database and in November 2006 sent them
                    surveys requesting third-quarter 2006 cost information. Between
                    December 2006 and February 2007, we received data from
                    96 hospital-based dialysis facilities (48 percent of facilities sampled and
                    31 percent of all hospital-based dialysis facilities).27
                    Data Analysis
                    CMS Data. We obtained the ASP-based reimbursement amounts for the
                    11 selected separately billable ESRD drugs in the third quarter of
                    2006 from CMS’s Web site.

                    Acquisition Cost Data. For both facility types, we calculated
                    volume-weighted average acquisition costs by totaling the amount paid
                    net any discounts and rebates for each drug and dividing it by the total
                    units purchased among all facilities for each drug. In calculating these
                    figures, we identified any outliers among the costs reported by facilities
                    and removed them from our analysis. We defined an outlier as an
                    average acquisition cost reported by a facility that was not within three
                    standard deviations of the mean. 28 We determined the percentage
                    difference between the volume-weighted average acquisition cost and
                    CMS’s third-quarter 2006 ASP-based reimbursement amount per drug for
                    both facility types. We then calculated the overall percentage difference
                    between facility average acquisition costs and Medicare reimbursement
                    by weighting the percentage differences by total 2005 Medicare
                    expenditures for the individual drugs. For each drug, we also calculated



                    27 We received 116 responses, but 23 of these respondents were unable to provide data for
                    reasons including participating in the 340B program, providing inpatient services only, and
                    not being able to itemize dialysis costs. One of the responding hospitals provided data on
                    three additional hospitals, making our total number of responses 96.
                    28 Among independent dialysis facilities, an average of 1.4 data points per drug were

                    considered outliers and removed. Among hospital-based ESRD facilities, this number was 1.5.
                    No more than four outliers were removed for any single drug in both types of facilities.



 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   7
I N T R O D        U C T     I O N


                    the percentage of facilities that had average acquisition costs below the
                    third-quarter 2006 ASP-based reimbursement amount.

                    Independent Chain and Nonchain Facilities. For the purpose of this review,
                    we defined a chain facility as one owned by a company that operates four
                    or more independent dialysis units. In total, 3,301 independent dialysis
                    facilities were part of various chains (2,868 owned by the two largest
                    companies and 433 owned by the six respondents that reported data for
                    multiple facilities). To determine whether independent dialysis chain
                    facilities had average acquisition costs different from those of nonchain
                    facilities, we compared cost data from the 3,301 chain facilities to cost
                    data from the 83 nonchain facilities by repeating the analysis described in
                    the above paragraphs.
                    Limitations
                    We did not verify the validity of the cost information submitted by the
                    dialysis facilities. This cost information applies only to the 84 percent of
                    all independent dialysis facilities and the 31 percent of all hospital-based
                    dialysis facilities that responded to our request. We do not assume that
                    the findings are representative of the entire population of independent
                    dialysis and hospital-based dialysis facilities.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and Efficiency
                    and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00590    MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   8
   Δ       F I N D I N G S

        Among responding independent dialysis                  In the third quarter of 2006, the average
facilities, the average acquisition cost was less              acquisition cost among responding
                                                               independent dialysis facilities for 9 of the
  than the Medicare reimbursement amount for
                                                               11 drugs under review was between
             9 of the 11 ESRD drugs under review
                                                               7 and 32 percent below the Medicare
                            reimbursement amount. The average acquisition cost for epoetin alfa
                            (a drug that accounts for three-quarters of Medicare expenditures in
                            independent facilities) was 10 percent less than the Medicare
                            reimbursement amount. In total, 99 percent of responding independent
                            dialysis facilities could purchase epoetin alfa for less than the Medicare
                            reimbursement amount.
                            For 2 of the 11 drugs, average acquisition costs ranged from 3 to 9 percent
                            above the Medicare reimbursement amount. Reimbursement for these
                            two drugs combined accounted for less than 1 percent of total Medicare
                            expenditures for separately billable drugs in independent dialysis
                            facilities in 2005. Table 1 illustrates the percentage difference between
                            average acquisition costs reported by independent dialysis facilities and
                            the third-quarter 2006 Medicare reimbursement amounts.

                            When weighted by 2005 total expenditures for each of the 11 drugs,
                            overall drug acquisition costs for responding independent dialysis
                            facilities were, on average, 10 percent below the Medicare reimbursement
                            amount.
            Table 1: Medicare Reimbursement and Average Acquisition Cost for Independent Dialysis Facilities

                                                             Third-Quarter                       Third-Quarter
                                                            2006 Medicare                                  2006                       Reimbursement
                                                           Reimbursement                               Average                      and Average Cost
              Drug                                                Amount                       Acquisition Cost                            Difference
              Doxercalciferol, 1 μg*                                         $3.16                                 $2.16                        -31.63%
              Calcitriol, 0.1 μg                                             $0.51                                 $0.37                        -26.88%
              Vancomycin HCl, 500 mg*                                        $3.23                                 $2.46                        -23.91%
              Levocarnitine, 1 g*                                            $9.08                                 $7.00                        -22.99%
              Iron sucrose, 1 mg                                             $0.37                                 $0.32                        -13.49%
              Paricalcitol, 1 μg                                             $3.81                                 $3.40                        -10.74%
              Epoetin alfa, per 1,000 units                                  $9.48                                 $8.56                         -9.66%
              Sodium ferric gluconate, 12.5 mg                               $4.75                                 $4.34                         -8.72%
              Darbepoetin alfa, 1 μg                                         $3.03                                 $2.82                         -6.67%
              Alteplase recombinant, 1 mg                                   $31.67                                $32.48                          2.55%
              Iron dextran, 50 mg                                           $10.34                                $11.29                          9.16%
            Source: OIG analysis of third-quarter 2006 average acquisition costs among responding independent facilities,
            February 2007. Third-quarter 2006 Medicare reimbursement amounts were downloaded from:
            http://cms.hhs.gov/McrPartBDrugAvgSalesPrice/02_aspfiles.asp. Accessed on February 14, 2007.
            * mg = milligrams, μg = microgram, g = gram.




       OEI-03-06-00590      MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6      9
     F   I N D I N G             S


                                Overall, responding independent chain dialysis facilities paid less for
                                the drugs under review than did nonchain facilities. On average,
                                independent chain facilities could purchase 8 of the 11 drugs under
                                review for less than independent nonchain facilities in the third quarter
                                of 2006. During that same period, the responding chain facilities were
                                able to purchase 9 of the 11 drugs for less than the Medicare
                                reimbursement amount, compared to 7 of the 11 drugs among nonchain
                                facilities. On average, the four drugs that nonchain facilities could not
                                purchase for less than the Medicare reimbursement amount accounted for
                                less than 10 percent of total Medicare payments for separately billable
                                drugs in 2005.
                                When weighted by 2005 total reimbursement for each of the 11 drugs,
                                overall drug acquisition costs for responding chain facilities were
                                12 percent below the Medicare reimbursement amount, compared to
                                7 percent below for nonchain facilities. This difference can be attributed,
                                in large part, to the pricing of epoetin alfa. Although chain facilities
                                initially paid more than nonchain facilities for 1,000 units of epoetin alfa
                                ($11.66 compared to $9.47), the chain facilities received an average
                                discount/rebate of $3.11, compared to $0.48 for nonchain facilities. As a
                                result, the final price for epoetin alfa for chain facilities was 5 percent
                                below the final price of the drug for nonchain facilities ($8.55 per
                                1,000 units compared to $8.99). The average acquisition costs in chain
                                and nonchain facilities for all 11 drugs are presented in Table 2.
Table 2: Average Acquisition Costs of Chain and Nonchain Independent Dialysis Facilities
                                                 Third-Quarter 2006
                                                          Medicare                    Third-Quarter 2006                        Third-Quarter 2006
                                                    Reimbursement                    Average Acquisition                       Average Acquisition
 Drug                                                      Amount                         Cost in Chains                        Cost in Nonchains
 Alteplase recombinant, 1 mg                                      $31.67                                      $32.45                                 $33.66
 Calcitriol, 0.1 μg                                                $0.51                                       $0.37                                  $0.73
 Darbepoetin alfa, 1 μg                                            $3.03                                       $2.72                                  $2.96
 Doxercalciferol, 1 μg                                             $3.16                                       $2.33                                  $0.72
 Epoetin alfa, per 1,000 units                                     $9.48                                       $8.55                                  $8.99
 Iron dextran, 50 mg                                              $10.34                                      $11.33                                 $10.08
 Iron sucrose, 1 mg**                                              $0.37                                       $0.32                                  $0.37
 Levocarnitine, 1 g                                                $9.08                                       $7.14                                  $5.40
 Paricalcitol, 1 μg                                                $3.81                                       $3.40                                  $3.70
 Sodium ferric gluconate, 12.5 mg                                  $4.75                                       $4.32                                  $4.84
 Vancomycin HCl, 500 mg                                            $3.23                                       $2.41                                  $2.51
Source: OIG analysis of third-quarter 2006 average acquisition costs among responding independent facilities, February 2007.
Third-quarter 2006 Medicare reimbursement amounts were downloaded from:
http://cms.hhs.gov/McrPartBDrugAvgSalesPrice/02_aspfiles.asp. Accessed on February 14, 2007.
* Costs for drugs above the Medicare reimbursement amount are in bold type.
** The average acquisition cost for iron sucrose in nonchain facilities is slightly higher ($0.368) than the third-quarter 2006
Medicare reimbursement amount ($0.366).


         OEI-03-06-00590        MEDICARE REIMBURSEMENT    FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6      10
F   I N D I N G            S



      Among responding hospitals, the average                    In the third quarter of 2006, the
     acquisition cost was less than the Medicare                 average acquisition cost among
                                                                 responding hospital-based dialysis
    reimbursement amount for 6 of the 11 drugs
                                                                 facilities for 6 of the 11 ESRD drugs
                                    under review
                                                                 under review was between 4 and
                          29 percent below the Medicare reimbursement amount. Average
                          acquisition costs for darbepoetin alfa and epoetin alfa (the two drugs that
                          account for the majority of Medicare spending in hospital-based facilities)
                          were 10 and 9 percent below the Medicare reimbursement amount,
                          respectively.

                          For 5 of the 11 drugs, average acquisition costs ranged from 1 to 8 percent
                          above the Medicare reimbursement amount. Reimbursement for these five
                          drugs accounted for 29 percent of reimbursement to hospital-based dialysis
                          facilities for the selected separately billable ESRD drugs in 2005. This
                          indicates that when compared to independent facilities, hospital-based
                          dialysis facilities could potentially face larger gaps between acquisition
                          costs and Medicare reimbursement when purchasing a number of highly
                          utilized drugs. Table 3 illustrates the percentage difference between
                          average acquisition costs reported by hospital-based dialysis facilities
                          and the third-quarter 2006 Medicare reimbursement amounts.

                          When weighted by 2005 total reimbursement for each of the 11 drugs,
                          overall drug acquisition costs for responding hospital-based dialysis
                          facilities were, on average, 7 percent below the Medicare reimbursement
                          amount—an amount identical to that for nonchain independent facilities.
     Table 3: Medicare Reimbursement and Average Acquisition Cost in Hospital-Based Dialysis Facilities

                                                           Third-Quarter                       Third-Quarter
                                                          2006 Medicare                                  2006                     Reimbursement
                                                         Reimbursement                               Average                         and Average
      Drug                                                      Amount                       Acquisition Cost                     Cost Difference
      Doxercalciferol, 1 μg                                                $3.16                                 $2.26                        -28.53%
      Calcitriol, 0.1 μg                                                   $0.51                                 $0.37                        -27.15%
      Alteplase recombinant, 1 mg                                         $31.67                                $27.20                        -14.12%
      Darbepoetin alfa, 1 μg                                               $3.03                                 $2.71                        -10.39%
      Epoetin alfa, per 1,000 units                                        $9.48                                 $8.66                         -8.67%
      Vancomycin HCl, 500 mg                                               $3.23                                 $3.12                         -3.54%
      Sodium ferric gluconate, 12.5 mg                                     $4.75                                 $4.78                          0.59%
      Levocarnitine, 1 g                                                   $9.08                                 $9.19                          1.19%
      Iron sucrose, 1 mg                                                   $0.37                                 $0.38                          3.95%
      Paricalcitol, 1 μg                                                   $3.81                                 $3.99                          4.78%
      Iron dextran, 50 mg                                                 $10.34                                $11.15                          7.81%
     Source: OIG analysis of third-quarter 2006 average acquisition costs among responding hospital-based dialysis
     facilities, February 2007. Third-quarter 2006 Medicare reimbursement amounts were downloaded from:
     http://cms.hhs.gov/McrPartBDrugAvgSalesPrice/02_aspfiles.asp. Accessed on February 14, 2007.


    OEI-03-06-00590       MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6       11
Δ   C O N C L U S I O N                           





                  CONCLUSION
                  In 2005, CMS reimbursed independent dialysis facilities for most
                  separately billable ESRD drugs based on either their acquisition cost (as
                  determined by OIG) or 106 percent of their ASP. At the same time, CMS
                  reimbursed hospital-based dialysis facilities for most separately billable
                  ESRD drugs on a reasonable cost basis. As of January 1, 2006, CMS
                  enacted several changes to the drug reimbursement methods used for
                  dialysis facilities. One revision included paying all dialysis facilities
                  106 percent of the ASP for all separately billable ESRD drugs (with the
                  exception of certain vaccines, blood, and blood products), making payment
                  methods for independent and hospital-based dialysis facilities the same.

                  As the findings in this report show, on average, responding independent
                  dialysis facilities could acquire the majority of the selected separately
                  billable ESRD drugs for less than the Medicare reimbursement amount.
                  Drug acquisition costs among different types of independent dialysis
                  facilities did vary, with overall drug costs among chain facilities being
                  somewhat less than those of nonchains. However, among both chain and
                  nonchain independent dialysis facilities, reimbursement for the drugs
                  with average acquisition costs above the Medicare reimbursement
                  amount accounted for a small percentage of overall drug expenditures. In
                  contrast, average acquisition costs among hospital-based dialysis facilities
                  for 5 of 11 drugs under review exceeded the Medicare reimbursement
                  amount. Expenditures for these drugs represented almost one-third of
                  overall expenditures in hospital-based dialysis facilities for separately
                  billable drugs.

                  In conclusion, acquisition costs for the same drug may vary based on the
                  type and chain affiliation of the facility, causing some facilities (especially
                  hospital-based facilities) to potentially experience greater gaps in
                  reimbursement than others. CMS should continue to monitor the
                  situation closely to ensure that all facilities are reimbursed appropriately.
                  In addition, we suggest that CMS consider the cost data presented in this
                  report in its discussions about the merits of separately billable drugs
                  under the composite rate, as recommended by the Government
                  Accountability Office.




OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   12
C O   N C L        U S I O    N      




                     AGENCY COMMENTS
                     CMS reiterated that it would continue to monitor ESRD payments in
                     relation to the drug acquisition costs of dialysis providers. CMS also
                     stated that this report provides useful information that will be helpful in
                     these monitoring efforts, and that the agency looks forward to continuing
                     to work with OIG on ESRD issues in the future.




 OEI-03-06-00590     MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   13
Δ   A P P E N D I X ~ A


     Agency Comments




OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   14
A   P   P E N D       I X ~    A




    OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   15
Δ      A C K N O W L E D G M E N T S                                                       




                        This report was prepared under the direction of Robert A. Vito, Regional
                        Inspector General for Evaluation and Inspections in the Philadelphia
                        regional office, and David E. Tawes, Director of the Medicare and
                        Medicaid Prescription Drug Unit.

                        Stephanie Yeager served as the lead analyst. Other regional and
                        central office staff who contributed include Linda B. Abbott, Scott
                        Horning, and Barbara Tedesco.




    OEI-03-06-00590   MEDICARE REIMBURSEMENT   FOR   E N D S TA G E R E N A L D I S E A S E D R U G S : T H I R D Q U A R T E R 2 0 0 6   16
